OIG Investigative Reports, Little Rock, AR 042011 - Ash Flat Tax Prepapers Found Guilty on Multiple Tax and Fraud Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE EASTERN DISTRICT OF ARKANSAS
ASH FLAT TAX PREPARERS FOUND GUILTY ON MULTIPLE TAX AND FRAUD CHARGES
April 26, 2011
Little Rock - Christopher R. Thyer, United States Attorney for the Eastern District of Arkansas; Darryl Williams, Acting Special Agent in Charge of the Internal Revenue Service Office of Criminal Investigations Nashville Field Office; Robert Feldt, Special Agent in Charge of the Social Security Administration, Office of Inspector General, Dallas Field Division; Thomas D. Utz, Jr., Special Agent in Charge, Department of Education, Office of Inspector General, Central Region; and John McDermott, Special Agent in Charge, Veterans Administration, Office of Inspector General, South Central Field Office, announced that James Bruce Morris, age 65, and his wife, Karen Sue Morris, age 48, the operators of B. Morris Ltd. tax preparation services in Ash Flat, Arkansas, were found guilty on all 44 counts of the superseding indictment.
After nine hours of deliberation following a two-week trial, James and Karen Morris, were convicted by a jury of charges related to theft of Social Security funds; obtaining Title IV funds through fraud; and submitting false tax returns for themselves and others. In addition, James was convicted of theft of Veterans Administration funds.
The maximum statutory penalty for theft of government funds is 10 years imprisonment and a $250,000 fine. The maximum statutory penalty for concealing a material fact regarding the receipt of Social Security funds, conspiring to defraud the government, obtaining Title IV funds by fraud and false statement is 5 years imprisonment and a $250,000 fine. The maximum statutory penalty for filing a false tax return and causing another to do the same is three years imprisonment and a $250,000 fine. The Morrises are not detained. They will be sentenced at a date to be determined by the court.
This investigation was conducted by agents from the Internal Revenue Service Office of Criminal Investigations, the Social Security Administration Office of Inspector General, the Veterans Administration Office of Inspector General, and the Department of Education Office of Inspector General. The case is being prosecuted by Assistant United States Attorneys Laura G. Hoey and John Ray White.
Top
Printable view
Last Modified: 04/28/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov